Audit Report



Return
    to the USDOJ/OIG Home Page




Office of Community Oriented Policing Services Grants to the Dona Ana County, New Mexico, Sheriff's Department

Report No. GR-80-03-002


March 2003
Office of the Inspector General


EXECUTIVE SUMMARY

The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services (COPS) to the Doña Ana County Sheriff's Department (Sheriff).  The purpose of the grants is to enhance community policing.  COPS awarded the Sheriff a total of $3,327,166 to hire 44 new police officers and $738,000 to purchase technology/equipment for timesavings by veteran officers.
We reviewed the Sheriff's compliance with six essential grant conditions, and we found weaknesses in two of the six areas we tested:  local match requirements and reimbursement requests.  As a result of the deficiencies identified below, we question $99,658 in grant funds received and recommend an additional $5,696 be put to better use.1 

The Sheriff withdrew overstated salary and fringe benefits of $16,630 that were unsupported UHP costs.
The Sheriff charged unsupported costs of $15,765 to the UHP grant.
The remaining $862 for an expired UHP grant should be deobligated as funds to better use.
The Sheriff did not document $67,263 of the local match for the UHP Supplement 1 grant.
The Sheriff received a UHP Supplement 2 and 2000 CIS grant that included unsupported salary and fringe benefits of $1,770 and $3,064, respectively.
The Sheriff was uncertain of the effect that baseline adjustments had on the number of positions that the county was expected to fund and fill to meet the grant retention requirements.

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in Appendix I.


Footnotes

The Inspector General Act of 1988 contains our reporting requirements for questioned costs and funds to better use.  However, not all findings are dollar-related.  See Appendix III for a breakdown of our dollar-related findings and for definitions of questioned costs and funds to better use.